                                                        IG-00-020




AUDIT
                             VALIDATING FY 1999 PERFORMANCE
REPORT                        DATA TO BE REPORTED UNDER THE
                                  GOVERNMENT PERFORMANCE
                                    RESULTS ACT (GPRA)

                                       March 28, 2000




                           OFFICE OF INSPECTOR GENERAL
National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232.

Suggestions for Future Audits

To suggest ideas for or to request future audits contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

       Assistant Inspector General for Auditing
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at
(800) 424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form;
or write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.




Acronyms

CFO            Chief Financial Officer
FY             Fiscal Year
GAO            General Accounting Office
GPRA           Government Performance Results Act
IT             Information Technology
NACC           NASA Automated Data Processing (ADP) Consolidation Center
NISN           NASA Information Systems Network
OIG            Office of Inspector General
OLMSA          Office of Life and Microgravity Sciences and Applications
OMB            Office of Management and Budget
PBC            Performance-Based Contract
W                                                                          March 28, 2000



TO:          A/Administrator

FROM:        W/Inspector General

SUBJECT: INFORMATION: Validating FY 1999 Performance Data To Be Reported Under the
         Government Performance Results Act (GPRA)
         Report Number IG-00-020


The NASA Office of Inspector General has completed an audit of the accuracy and reliability of
performance data for selected FY 1999 GPRA performance targets in the Agency's Performance
Report. We performed the audit in response to a request by congressional leaders to assess
Agency controls for ensuring that the underlying performance data (in the Agency’s annual
Performance Report) are accurate and reliable. The annual Performance Report is an important
document that NASA, Congress, and the Office of Management and Budget will use to assess
NASA’s overall performance and make decisions on programs and funding levels. We
concluded that supporting data and information on 18 of 23 performance targets reviewed were
adequate, and we did not identify any significant problems with reported actual performance for
those targets. However, the reported performance on five targets reviewed was not fully reliable
because the supporting data did not accurately support the results described. Reporting
performance results that are not fully reliable limits the usefulness of the Performance Report to
NASA, OMB, and the Congress. Although NASA had taken some steps to validate performance
information that will go into the annual Performance Report, the process could be further
improved.

Background

GPRA was enacted in 1993 to improve public confidence in the Federal Government by holding
agencies accountable through setting program goals, measuring performance against those goals,
and reporting publicly on progress. Each agency is required to prepare a Strategic Plan, an annual
Performance Plan, and an annual Performance Report. NASA issued its Strategic Plan in 1997
and issued a Performance Plan for FY 1999 as required by GPRA. At the time we performed the
audit, NASA was in the process of collecting data and preparing its first Performance Report
covering FY 1999.

NASA’s Office of Policy and Plans is responsible for developing and implementing the Strategic
Plan. The Office of the Chief Financial Officer (CFO) is responsible for developing and
implementing the annual Performance Plan and for preparing the annual Performance Report.
                                                                                           2

NASA Centers are responsible for implementing many of the programs and activities for which
the performance goals and targets have been established. Therefore, much of the data used to
measure and evaluate actual performance either were provided by Center offices or came from
systems into which the Centers enter the data. For most of the targets we reviewed, the
Headquarters offices responsible for the program or activity had collected the data from the
Centers or systems, developed a written assessment of the actual performance, and submitted that
assessment to the CFO for use in preparing the Performance Report. We evaluated those
assessments and the supporting information during the audit.

The FY 1999 Performance Plan contained a total of 145 performance targets to achieve the
established goals and objectives. We reviewed 23 targets that related to 3 critical areas:
Procurement, Information Technology, and Safety and Mission Assurance.

Recommendations, Management's Response, and OIG Evaluation

We recommended that the CFO establish policies to ensure (1) that all targets in the annual
Performance Plan are clear and specific and can be accurately measured and reported and (2) that
the program offices effectively validate and certify supporting data and reported final results
prior to submitting them for the annual Performance Report. We also recommended that the
CFO review and correct information on the five targets discussed in our report, and the other FY
1999 targets not audited, to ensure all reported results in the Performance Report are accurate and
reliable.

Management concurred with the recommendations. The Office of the CFO stated that it has
developed instructions to be followed in the development of plans and Performance Reports.
Additionally, guidance will be included in the annual budget guidance, and quarterly reviews of
progress will be required. Regarding accuracy of the FY 1999 results, the Office of the CFO
stated that the five targets discussed in the audit report had been addressed and corrected and that
NASA offices had been requested to confirm that they validated all their inputs for the FY 1999
Performance Report.

Management’s proposed actions are responsive. However, we encourage management to
consider adding guidance on developing and validating performance measures in the Strategic
Management Handbook for all NASA offices to follow. Although we believe this additional
action would be beneficial, we accept management’s proposed actions and will monitor their
effectiveness in future GPRA-related audits. Details on the status of the recommendations are in
the recommendations section of the report.

[Original signed by]


Roberta L. Gross

Enclosure
Final Report on Audit of Validating FY 1999 Performance Data
 To Be Reported Under the Government Performance Results Act
                   FINAL REPORT
 VALIDATING FY 1999 PERFORMANCE DATA TO BE REPORTED
UNDER THE GOVERNMENT PERFORMANCE RESULTS ACT (GPRA)
W                                                                      March 28, 2000



TO:            B/Chief Financial Officer

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report on the Audit of Validating FY 1999 Performance Data To Be
               Reported Under the Government Performance Results Act (GPRA)
               Assignment Number A0000500
               Report Number IG-00-020


The subject final report is provided for your use. Our evaluation of your response is incorporated
into the body of the report. The comments and planned actions on the three recommendations
are considered responsive. However, NASA management should take the additional steps
discussed in the report to fully resolve the issues related to the GPRA. Although we advocate
taking the additional actions described, we accept proposed actions on the recommendations and
will monitor their effectiveness in future GPRA-related audit work. Accordingly, all
recommendations are considered closed for reporting purposes with issuance of this report.

If you have questions concerning the report, please contact Mr. Chester A. Sipsock, Program
Director, Environmental and Financial Management Audits, at (216) 433-8960, or Mr. Richard
Dix, Program Manager, at (301) 286-8525. We appreciate the courtesies extended to the audit
staff while performing the audit. See Appendix E for the report distribution.

[Original signed by]


Russell A. Rau
                                              2


cc:

B/Chief Financial Officer
B/Comptroller
G/General Counsel
Z/Senior Advisor for Strategic Planning
BF/Director, Financial Management Division
BR/Director, Resources Management Division
JM/Director, Management Assessment Division
                                 3


bcc:
B/Audit Liaison Representative
Z/Audit Liaison Representative
W/C. Sipsock
   R. Dix
                                 NASA Office of Inspector General

IG-00-020                                                                                      March 28, 2000
 A0000500

         Validating FY 1999 Performance Data To Be Reported Under the
                  Government Performance Results Act (GPRA)1

Introduction

The NASA Office of Inspector General (OIG) has conducted an audit of data supporting the
Agency’s actual results on selected performance targets2 in the fiscal year (FY) 1999 GPRA
Performance Plan. The audit was performed in response to a congressional request3 to assess
Agency controls for ensuring that the underlying performance data (in the Agency’s annual
Performance Report) are accurate and reliable. The FY 1999 Performance Plan contained a total
of 145 performance targets to achieve the various goals and objectives established for Agency
programs and activities. We reviewed 23 targets that related to 3 critical areas. Those areas were
Procurement, Information Technology, and Safety and Mission Assurance. Appendix A
contains further details on the audit objective, scope, and methodology. Appendix B provides
details on the 23 targets reviewed.

GPRA was enacted in 1993 to improve public confidence in the capability of the Federal
Government by systematically holding Federal agencies accountable for achieving program
results. GPRA requires this to be accomplished through setting program goals, measuring
program performance against those goals, and reporting publicly on progress. Specifically,
Federal agencies are required to:

•   Develop periodic strategic plans, setting forth the Agency’s mission and general goals and
    objectives. The initial Strategic Plan, required by the Congress no later than September 30,
    1997, was to cover a period of not less than 5 years forward from the fiscal year in which it
    was submitted, or 2002. An updated Strategic Plan must be submitted every 3 years
    thereafter.

•   Prepare and submit to the Director of the Office of Management and Budget and the
    Congress an annual Performance Plan, beginning with FY 1999. The plan should establish
    objective and measurable performance goals, establish performance indicators to be used in

1
  This act is contained in Public Law 103-62.
2
  Performance target is the term NASA uses in the Performance Plan for those measures or metrics that were
established to accomplish (and measure) the individual goals and objectives. Target, as used in this report, generally
equates to the terms “measure” or “indicator” as used in the GPRA.
3
  An October 1998 letter signed by the House Majority Leader and Chairmen of the House Committee on
Government Reform and Oversight; the House Subcommittee on Government Management, Information, and
Technology; and the Results Caucus requested the NASA OIG to establish a GPRA review plan to assess Agency
controls. In response to the request, a plan was included in the OIG Semiannual Report for March 31, 1999.
    measuring
    relevant outputs or other results, provide a basis for comparing actual results with the
    established goals, and describe the means to be used to verify and validate measured values.

•   Prepare and submit to the President and the Congress an annual Performance Report that
    describes actual program performance in the previous fiscal year. The report is required to
    set forth the performance indicators established in the annual Performance Plan and compare
    planned with actual performance. The report should also describe actions that will be taken
    on performance goals that are not met and summarize findings of program evaluations
    completed during the fiscal year. The first performance report is required to be issued by
    March 31, 2000, covering results for FY 1999.

Results in Brief

We considered the supporting data and information on 18 (78 percent) of the 23 performance
targets reviewed to be adequate and did not identify any significant problems with reported actual
performance. However, we did not consider the reported performance 4 on five targets to be fully
reliable because the data reviewed did not accurately support the results being described. Based
on the results of our audit, we cannot project but can surmise that other targets may also have
inaccurate supporting data and reported results. NASA could improve the accuracy of the FY
1999 Performance Report by more effectively validating the supporting data and by developing
clearer, more specific targets. This would increase the Performance Report’s value as a source of
information for making important program and funding decisions.

Background

NASA issued its Strategic Plan in 1997 and must update it for FY 2000. The FY 1999
Performance Plan, updated in February 1999, provided near-term goals for each of the Agency’s
four business enterprises 5 and at least one performance target to help achieve each of the goals.
The Performance Plan also included goals and targets for several internal processes that have
Agency-wide impact and are referred to as “crosscutting” processes.6 At the time we performed
the audit, NASA was in the process of collecting data and preparing its first Performance Report.
The annual Performance Report is an important document that NASA, Congress, and OMB will
use to assess NASA’s overall performance and make decisions on programs and funding levels.

Under current internal agreements, NASA’s Office of Policy and Plans is responsible for
developing and implementing the Strategic Plan, and the Office of the Chief Financial Officer
(CFO) is responsible for developing and implementing the annual Performance Plan and for

4
  For purposes of our review and this report, the terms “reported performance” and “reported results” are the same
and refer to the written evaluation of actual results prepared by the program and staff offices and provided to the
Chief Financial Officer for the Performance Report.
5
  The four enterprises are (1) Space Science (2) Earth Science (3) Human Exploration and Development of Space,
and (4) Aero-Space Technology.
6
  The Performance Plan identifies crosscutting processes as “Managing Strategically,” “Providing Aerospace
Products and Capabilities,” “Generating Knowledge,” and “Communicating Knowledge.”

                                                     2
preparing the annual Performance Report. Although the Office of Policy and Plans had issued
guidance on the overall strategic planning and implementation process,7 the CFO had not issued
formal guidance on specific aspects of developing, measuring, and reporting performance under
the Performance Plan and Performance Report.

NASA Centers are responsible for implementing many of the programs and activities for which
the performance goals and targets have been established. Therefore, most of the data used to
measure and evaluate actual performance on targets we reviewed either were provided by Center
offices or came from systems into which the Centers enter the data. For the FY 1999
performance results on targets we reviewed, the Headquarters program and staff offices generally
collected the data from the Centers (or systems), developed a written assessment of the actual
performance, and submitted that assessment to the CFO for use in preparing the Performance
Report. The process also included discussing the results with senior managers and the NASA
Advisory Council.8

Reliability of Data for Reported Results

Finding. Five (22 percent) of 23 performance targets reviewed had written assessments of
performance prepared by the program and staff offices that did not accurately reflect supporting
data and actual results. This was because effective procedures were not in place to verify and
validate supporting data and the results. Also contributing to the problems were poor phrasing of
some targets and a general lack of formal guidance for preparing and reporting performance
targets. The planned reported performance on these five targets is, therefore, not fully reliable
which may limit the usefulness of this information to NASA, Office of Management and Budget
(OMB), and the Congress for decision-making. Reported performance for some of the 122
targets not reviewed may also not be fully reliable for the same reasons. Management attention is
needed to address and correct this problem before issuing the Performance Report.

Verifying Supporting Data and Results

For the annual Performance Report to be useful, the data on the actual achievements on the
Agency’s performance goals and targets, and the comparisons of planned and actual
performance, must be accurate.9 GPRA requires the annual Performance Plan to include a
description of the means used to verify and validate measured values. Also, to have accurate
measurements of actual performance, it is important that the targets are described in the Plan in a
manner that ensures the planned achievements, and how they are measured, are clear.

NASA’s FY 1999 Performance Plan described, as required by GPRA, the means by which the
Agency would verify its performance data. The primary means were reviews by internal and

7
  NASA Strategic Management Handbook, October, 1996.
8
  The Council, composed of outside experts chosen by NASA, and its committees provide advice and counsel
directly to the Administrator.
9
  NASA also includes selected performance information in an Accountability Report that is issued as part of the
annual Financial Statements. We discussed with CFO staff our audit findings on specific targets that were also going
to be included in the 1999 Accountability Report so the CFO staff could take appropriate action.

                                                     3
external groups such as the OIG, the General Accounting Office (GAO), and the NASA
Advisory Council. In its review of the 1999 Plan, GAO identified a weakness in the Plan in that
it
does not discuss limitations on data, particularly from external sources, that would be used. We
noted in an earlier audit that the Agency lacked specific procedures for NASA program offices to
follow in verifying performance data and reported results.10 NASA management took the
position that most of the data used to measure GPRA-related performance came from internal
sources, thus additional procedures were not necessary to ensure accuracy and reliability.

For 18 of the 23 targets reviewed, we did not find any significant problems with the actual
performance that was reported by the program and staff offices. Except for minor errors, the
supporting data and manner in which actual results were reported were generally adequate. However,
as evidenced by the five targets discussed below, there could be further improvement in the overall
process for reviewing and validating all GPRA performance data and reported results. The five targets
are also good examples of targets with data limitations or special circumstances that should be
discussed in the annual Performance Report, as recommended by the GAO. Each of the five targets
for which we had concerns about accuracy and reliability of reported results is discussed below.

Target H-18: “Achieve a 60 percent increase in the predicted reliability of the Space
Shuttle over 1995.” This target relates to a program managed by the Office of Space Flight.
NASA plans to report that it achieved a 60-percent increase over 1995.11 In reviewing data on
this target, we were concerned about the accuracy and reliability of the reported results primarily
due to questions about the quantitative models that generated the data on which the reported
results were based. However, we also were concerned about the phrasing of the target and the
incorrect impression the reported results could give to someone outside NASA and the program
office.

In reviewing the target and results, we determined that reported performance was based on data
derived from quantitative models operated by Marshall Space Flight Center that related only to
the Shuttle engines and not the entire Shuttle. The models are complex and use various data such
as flight and test data, probabilistic structural models, similarity analysis, and engineering
judgment and assumptions to quantitatively derive a predicted risk of a certain event. During our
audit, a team of Shuttle and quantitative analysis experts assessed these models to provide input
into NASA’s overall effort to improve its risk assessment capabilities.12 The team’s report raised
a number of questions about the Marshall models (and the Johnson models) and concluded that
the (model) analyses and results were not sufficient to be used for decision support without

10
   More details on these reviews are provided in Appendix C.
11
   Specifically, the Shuttle Management Office stated the improvement was “from 1/248 to 1/438 median probability
on ascent” meaning that the probability of catastrophic failure during launch ascent went from 1 in 248 to 1 in 438
chances. These predicted probabilities came from automated models that used quantitative techniques to make the
calculations.
12
   This review team was composed of experts from outside NASA and performed its work for the Office of Safety
and Mission Assurance under Task 2.1 on NASA contract NASW-99010. The team evaluated both the Marshall
models on the Shuttle external propulsion systems and the Johnson models used on the Shuttle orbiter. The team
provided NASA a report in January 2000. Among the problems cited with the models were that all the needed data
were not being gathered and used and that the treatment of uncertainties was generally insufficient.

                                                    4
additional Shuttle design and operational insights. Based on the questions raised in the review
team, we believe the reported results on this target are not fully reliable and that the
circumstances should be discussed in the Performance Report. The limitations of these models
and the data they provide are good examples of the type of information that should be explained
in the Performance Report as recommended by the GAO.

In addition to the data issues discussed above, the phrasing of the target contributes to problems
in accurately reporting performance. The target implies a degree of reliability of the entire
Shuttle system which includes the Orbiter, the engines, and the external tank. However, the
measured and reported performance we reviewed involved only improvements made to the
Shuttle engines and the impact these changes had on the predicted probability of a catastrophic
failure during launch ascent. Although an improvement in engine reliability adds to overall
Shuttle reliability, the amount of increase for the engines does not equate to the same level of
increase for the overall Shuttle system as the target and reported information implied. If the
target had been worded more precisely to reflect that the planned increased reliability related to
engine improvements, the data and reported results would have been more consistent and
accurate. NASA officials who approve the annual Performance Plan should ensure targets are
clearly stated and reflect what will be measured and reported.

Target Y-33: “Complete solicitation for at least seven cooperative agreements with state and
local governments in land use planning, land capability analysis, critical areas management,
and water resources management.” This target relates to programs managed by the Office of Earth
Science. NASA plans to report that: (a) 11 cooperative agreements were established with state and
local governments; (b) the projects involve about 20 state agencies and 15 regional or county-level
agencies; and (c) the research is generally led by university scientists partnering with regional, state,
and local agency partners. In reviewing the target, we determined that the supporting data was not
consistent with the reported results and that the information on this target in the FY 1999 Performance
Report is not accurate and reliable.

To verify the reported information, we requested documentation for the 11 cooperative agreements
that were cited. The data we received reflected that four formal cooperative agreements had been
established and that only one of them 13 was with a state or local government as described in the target
and performance assessment. The three other cooperative agreements were with universities or other
organizations. The remaining seven projects were grants, not cooperative agreements, and six of the
grants were with universities rather than state and local governments as described in the target.

Cooperative agreements and grants differ,14 both in their nature as well as use, and the two terms are
not meant to be used interchangeably. Therefore, the reported performance on this target that 11
cooperative agreements had been established was not accurate. It was additionally misleading to state
that all the “projects,” whether grants or agreements, had been established with state and local
governments when the supporting information indicated otherwise. We could not determine exactly

13
   Agreement NCC5-313 with the Resources Agency of California.
14
  Both are a means NASA uses to support research. However, agreements are used when NASA participates in the
performance of the effort, whereas a grant is used to support effort primarily accomplished by the other party such as
a university, state, or other organization.

                                                      5
why actual performance was described inaccurately. Because the individuals who prepared the initial
assessment stated that the final reported results were phrased differently from what was submitted, we
believe the Headquarters Performance Report editing process may be part of the problem.
Nevertheless, this example supports the need for better verification and validation of the data and
information that will be included in the Performance Report.

Target MS-8: “Improve information technology (IT) infrastructure service delivery to
provide increased capability and efficiency while maintaining both a customer rating of
“satisfactory” and costs per resource unit at the FY 1998 baseline.” This target was one of
the crosscutting performance targets in the FY 1999 Performance Plan that affects operations
Agency-wide. The target relates to a program area managed by the Agency’s Chief Information
Officer. NASA plans to report that it achieved the target performance. In reviewing this target,
we identified an inconsistency between how the target was worded and how actual performance
was being measured and reported. Therefore, we do not consider the reported assessment to be
completely reliable.

The data used to measure and report actual performance related to only two major NASA IT
components: (a) the NASA Information System Network (NISN) and (b) the NASA Automatic
Data Processing Consolidation Center (NACC).15 Although these two components are large and
have Agency-wide impact, they do not represent NASA’s entire IT infrastructure. There are
many other systems and IT services that also are part of NASA’s total IT infrastructure. For
example, NASA’s Information Management 5-year Plan lists about 50 IT systems and activities
that make up the infrastructure, including the Numerical Aerodynamic Simulation facility, the
Shuttle Management Planning and Tracking System, and the NASA Equipment Management
System.

The data we reviewed, including customer survey results and operating unit costs, reasonably
supported a conclusion that the target had been met for NISN and NACC. However, the reported
results we reviewed did not explain that the performance related to only the NISN and NACC.
Rather, the stated performance was “[NASA] substantially improved performance of Agency-
wide IT support while maintaining customer ratings of satisfied to very satisfied and holding (or
reducing) costs per resource unit to the FY 1998 baseline.” Reporting performance on this target
in that manner in the annual Performance Plan would give an inaccurate impression that IT
services throughout the Agency have been improved while costs and customer satisfaction have
been maintained. Although the actual performance attained is noteworthy, this target
demonstrates the need for NASA to more precisely word GPRA performance targets and to
effectively validate data on actual results to ensure they are accurately reported.




15
   The NISN is essentially a communications network that includes a number of different services such as video
teleconferencing, mission operations for flight projects, and dedicated data links. The NACC is a consolidation of
several administrative computing systems, such as payroll and personnel, operated at the Marshall Space Flight
Center.

                                                     6
Target MS-6: “Increase obligated funds available for performance-based contracts (PBC)
to 80 percent.” 16 This target is another crosscutting performance target that affects operations
Agency-wide. NASA planned to report it had increased its performance-based contract
obligations to 80 percent of funds available for such contracts. In reviewing this target, we
concluded the reported results were not fully reliable due to uncertainties about the accuracy of
data on contracts being coded as PBC. Therefore, performance results for this target in the FY
1999 Performance Report need to be qualified to explain the possible error in the measured data.

PBC is a relatively new approach for procuring goods and services within NASA and the Federal
Government. Basically, the Government describes what needs to be done or provided, and the
contractor decides how best to accomplish it and is reimbursed based on how well that is done.
Because performance-based contracting is a new process, Agency personnel are still learning
about what PBC’s are and when and how to use them. To help monitor PBC implementation,
NASA has included an evaluation of this area in its procurement system reviews.17 Also a PBC
Assessment Team was created to specifically evaluate PBC efforts at NASA Centers. One of the
steps taken by the PBC team in reviewing sample contracts was to ensure they been correctly
designated as a PBC.

To validate supporting data and reported results on this target we examined the results of the
Center reviews (discussed in the previous paragraph) where the PBC was evaluated. The
completed Center reviews we examined indicated that some contracts were not correctly
designated as PBC's. For example, a recent review by the PBC team determined that 2 of 13
sample contracts at Ames Research Center were not coded correctly and at Dryden Flight
Research Center, 2 of 9 sampled contracts were not coded correctly as PBC’s. Statistical
sampling is not used in these Center reviews, so neither those results nor our audit work
accurately identify the extent of errors in the procurement information system due to incorrect
PBC coding. However, as the Center reviews indicate, errors in coding exist.

Until these errors can be eliminated or accurately identified, the reliability of reported data on the
number or dollar value of PBC’s must be considered questionable and should be qualified
accordingly. NASA should explain the possible margin of error in the measured results for this
target in the Performance Report. As with the other targets discussed in this report, this example
supports the need for NASA to better validate and explain the data and reported results on targets
before including them in the annual Performance Report.

Target H-1: “Support an expanded research program of approximately 800 investigations, an
increase of about 9 percent over FY 1998.” This target relates to research managed by the
Headquarters Office of Life and Microgravity Sciences and Applications (OLMSA). An investigation
is a research project or task that is funded by NASA through one of several methods such as a grant, a

16
   For the target, funds available for PBC’s exclude grants; cooperative agreement actions under $100,000; Small
Business Innovation Research; Small Business Technology Transfer Research; Federally-Funded Research and
Development Centers; intra-governmental agreements; and contracts with foreign governments or international
organizations.
17
   These reviews are performed at all Centers and include evaluations of many procurement aspects such as pricing,
competition, and contract administration.

                                                    7
Science Institute or Center, or Commercial Space Center. NASA initially planned to report that 877
investigations were supported during FY 1999. In reviewing data supporting the results, we
questioned the accuracy of the figure reported. As discussed below, NASA subsequently reevaluated
the data and revised the reported number of supported investigations.

The data supporting the 877 reported investigations came from reports provided to Headquarters by
the three Centers who primarily provide support for this research—Ames Research Center, Johnson
Space Center, and Marshall Space Flight Center. The senior resources manager in OLMSA told us
that the reported performance figure was intended to include only investigations that (a) received some
funding in FY 1999 and (b) involved research selected through a “peer review” process.18 In verifying
the reported results, we reviewed the Johnson reported data and discussed it with individuals at the
Center and at Headquarters. The report showed that all the projects included in the Johnson total had
received FY 1999 funding. We randomly selected five projects from the Johnson report to examine
documentation that would verify that the investigations included in the Johnson total also had been
selected by a peer review process. Two 19 of the five did not have documentation because they had
not been peer reviewed. Rather, they were just two projects that received funding and were tracked on
this particular report. A project scientist at NASA Headquarters familiar with these projects also
stated that they were not peer-review-type projects. These errors raised questions about the reliability
of the reported 877 investigations.

To try to identify the cause of this problem, we reviewed the instructions OLMSA issued to the
Centers for requesting data on this target. The instructions discussed the need to include only
investigations that received funding in FY 1999 but did not discuss the need to omit projects that were
not peer reviewed. Omitting this important criteria from the instructions, in our opinion, contributed
to some investigations being inadvertently included in the reported data. Our limited audit scope did
not permit additional work to identify the full extent of the errors in the reports from all three Centers.
However, as a result of our questions on this matter, NASA reevaluated the data on this target and
revised the reported results to show that 872 investigations were supported. We commend OLMSA
managers for taking this prompt action but believe the initial errors that the audit identified reflect a
need to improve the current verification and validation procedures to ensure the performance
assessments and supporting data are accurate and reliable.

Conclusions

NASA has just completed the first cycle of developing and using a Performance Plan and is
currently preparing the first required Performance Report. Therefore, the Agency is still learning
how to effectively implement GPRA and measure performance under the Act’s requirements. As
discussed in this report, NASA’s GPRA performance measurement process has some weak areas.
Specifically, what the performance targets say and what is being measured and reported are not
always consistent. Also, the performance assessments and supporting data for some performance
targets are not being adequately verified and validated. Management actions are needed to take

18
   A process in which a panel of qualified people, not involved with the project, review the proposed research to
determine if it is appropriate for funding and supporting.
19
   One investigation involved providing research facility time (simulating space radiation) to an investigator and the
other involved general support for a U.S.-Russian Space Technology program.

                                                      8
advantage of these lessons learned and ensure that all the information in the annual Performance
Plans and Reports is reliable and useful in decision-making.

Recommendations, Management’s Response, and Evaluation of Response

The Chief Financial Officer should:

1. Establish policy for the program and other offices to use in developing performance
   targets for the annual Performance Plan, and participate in the development process to
   ensure that all targets are clear and specific, and can be accurately measured and
   reported.

Management’s Response. Concur. The Office of the CFO has developed Office Work
Instructions, HOWI17410-B001 and HOWI17410-B003, to be followed in the development of
Performance Plans and Reports. A number of Headquarters offices have developed similar work
procedures for these processes that will be going through or have been through ISO certification.
These work instructions will be issued, along with guidance that will be issued as a part of the
annual budget guidance and supporting directions relative to reporting requirements. The
complete text of management’s response is in Appendix D.

Evaluation of Management’s Response. We consider management's actions responsive to the
recommendation. We believe it would also be beneficial to have a consistent, singular set of
instructions in a formal document, such as the Strategic Management Handbook, for all NASA
offices to use in developing their performance targets. Those instructions should describe what
an effective target is, provide examples, and require that the development process include
coordination with responsible Centers, advisory groups, and other offices having a role in
achieving or measuring results. Although we encourage management to take these additional
steps, we accept the proposed actions and will monitor this area in our ongoing audits to
determine whether the existing procedures are adequate. Accordingly, this recommendation is
considered dispositioned and closed with issuance of this report.

2. Establish policy requiring the program and other offices to validate and certify
   supporting data and reported final results prior to submitting them for inclusion in the
   annual Performance Report.

Management’s Response. Concur. Separate guidance will be issued annually, along with the
addition of quarterly reviews of progress that are documented in the internal office work
instructions. It is unnecessary to further document responsibilities of the performing
organizations for the quality and certification of the performance data. The complete text of
management’s response is in Appendix D.

Evaluation of Management’s Response. Management’s planned actions are responsive to the
recommendation. As discussed earlier, we believe it would be beneficial to clearly describe in
the Strategic Management Handbook, or a similar formal policy document, the steps that are to
be taken to validate and verify the data. The handbook or policy would provide a single set of

                                            9
guidelines for all NASA offices to follow and would result in greater assurance that all
performance information in the annual Performance Report was consistently and fully validated.
As with recommendation 1, we encourage management to take this additional action, and we will
monitor this area in our future GPRA audit work to determine whether planned actions are
effective. Accordingly, this recommendation is considered dispositioned and closed with
issuance of this report.

3. Review and correct information on the five targets discussed in this report, and review
   FY 1999 targets not covered in this audit to ensure the reported results and supporting
   data are accurate and reliable (or qualify and explain them as needed) prior to issuing
   the annual Performance Report.

Management’s Response. Concur. Management reviewed the performance statements for the
five targets discussed in the report and made corrections or clarifications in the final Performance
Report. In addition, the Office of the CFO requested a confirmation from all Enterprises and
Crosscutting Processes that they have validated their inputs to the annual Performance Report.
The complete text of management’s response is contained in Appendix D.

Evaluation of Management’s Response. Management’s planned actions are responsive to the
recommendation. The recommendation is, therefore, considered dispositioned and closed with
issuance of this report.

In relation to actions on the five targets discussed in management’s response, we have the
following observations. For target H-18 (to increase Space Shuttle predicted reliability by 60
percent), management indicated that the Performance Report will not discuss the external study
on the models, or the issues it raised, because the study occurred after the end of the fiscal year
and “…a fuller discussion would not add value to the reporting….” We believe that any
information available on all performance data discussed in the Performance Report prior to its
issuance should be included to fully explain and support the data and results being reported. If
the Performance Report is going to be useful to NASA, Congress, and others, the information in
the report must be accurate and reliable. Achieving a high degree of accuracy and reliability
requires full disclosure of any limitations or questions about the results and supporting data.
Management should ensure that such limitations or questions are fully explained in reporting all
future performance results.

Regarding target MS-6 (to increase obligated funds for performance-based contracts),
management referenced the review the Office of Procurement performed. The full results of that
review were not available at the time we performed our audit work. Our concerns on this target
were based primarily on information available at the time, which clearly showed contracts were
still occasionally misclassified as being performance-based. Such misclassification would
impact the accuracy of the funding amounts, and thus achieving the target. Our intent was to
ensure that the Performance Report fully discussed any known limitations with the reported
results and supporting data. If management has current information showing that the results on
this (or any) target are highly reliable, then that information should be included in the
Performance Report to give the reported results added credibility.

                                             10
                  Appendix A. Objectives, Scope, and Methodology

Objective

Our objective was to identify and evaluate data and information supporting the results for
selected GPRA-related performance targets to determine whether they were reliable.

Scope and Methodology

The audit covered targets contained in NASA’s revised FY 1999 Performance Plan that was
issued in February 1999. NASA’s plan included 145 performance targets. In order to perform
this review, we concentrated on targets that fit within three areas considered critical to the
Agency: Procurement, Information Technology, and Safety. Further, we included only targets
that NASA intended, at the time of our audit, to report as being fully achieved or exceeded. We
reviewed 23 performance targets that, in our opinion, met those criteria. Appendix B provides
details on the targets reviewed. Although we did not use statistical sampling procedures, we
considered the selected targets reasonably representative of all the targets included in NASA’s
Plan.

In performing the audit we:

•   Reviewed GPRA legislation, OMB guidance, and related documentation relative to
    measuring and reporting performance results.

•   Obtained and reviewed, for the selected targets, the measured data and information
    supporting the results that were planned to be included in NASA’s FY 1999 Performance
    Report.

•   Interviewed NASA personnel and others who had a role either in collecting and providing the
    data and information used to measure results or in summarizing and reporting the results.

•   Determined, through interviews and review of readily available studies or analyses, whether
    there were known major problems with the systems or sources of the performance data.

Management Controls Reviewed

We reviewed the following controls with respect to measuring and reporting performance:

•   NASA FY 1999 Performance Plan (revised February 1999)

•   NASA Strategic Handbook (October 1996)

•   OMB Circular A-11, “Preparing and Submitting Budget Estimates” (July 12, 1999)


                                            11
Appendix A

•   NASA CFO Memorandum on Performance Information (October 27, 1999)

Management controls for validating the reliability of GPRA-related performance data and the
reported results are not adequate as discussed in the finding.

Audit Field Work

We conducted field work from late October 1999 through January 2000, primarily at NASA
Headquarters. However, we also made brief contacts at Goddard, Johnson, Kennedy, Langley,
Marshall, and Stennis to obtain information. We performed the audit in accordance with
generally accepted government auditing standards.




                                          12
               Appendix B. Performance Targets Reviewed in Detail


Target               Target Description Stated in the FY 1999 Performance Plan
Numbe
   r
CK-10 Acquire 10,550 NASA-sponsored, -funded, and/or –generated report documents for
       the American scientific community and public, publish 26 issues of an electronic
       current awareness product to announce additions to the NASA science and technical
       information database, and add 24,400 bibliographic/citation records to the online
       NASA science and technical information database.
GK-1 Submit 80 percent of Agency research projects to peer-reviewed processes.
H-1    Support an expanded research program of approximately 800 investigations, an
       increase of about 9 percent over FY98.
H-18 Achieve a 60 percent increase in predicted reliability of the Space Shuttle over 1995.
H-19 Deploy and activate the Russian-built Functional Cargo Block (FGB) as the early
       propulsion and control module.
H-23 Initiate preparations for the launch of the first EXPRESS rack with five payloads on
       assembly flight 7A-1.
H-25 Complete the development of countermeasure research protocols, and begin testing at
       least three countermeasures to protect bone, muscle, and physical work capacity.
H-35 Increase industry investment (cash and in-kind) in space research from $35 million in
       FY96 to at least $50 million in FY99 – a 40 percent increase.
H-41 Deploy and activate the first U.S.-built element, Unity (Node 1), to provide docking
       locations and attach ports.
H-42 Initiate full-scale Multi-Element Integration Testing (MEIT) for elements in the first
       four launch packages.
H-43 Deliver the U.S. Laboratory module to the launch site in preparation for MEIT.
H-44 Conduct physical integration of the Z1 Truss launch package and initiate MEIT.
MS-6 Increase obligated funds available for performance-based contracts (PBC) to 80
       percent (funds available exclude grants, cooperative agreements, actions <$100,000,
       SBIR [Small Business Innovation Research], STTR [Small Business Technology
       Transfer Research], FFRDC [Federally Funded Research and Development Centers],
       intergovernmental agreements, and contracts with foreign governments or
       international organizations).
MS-7 Achieve at least the congressionally mandated 8 percent goal for annual funding to
       small disadvantaged businesses (including prime and subcontracts, small
       disadvantaged businesses, HBCU's [Historically Black Colleges and Universities],
       other minority institutions, and women-owned small businesses).
MS-8 Improve information technology infrastructure service delivery to provide increased
       capability and efficiency while maintaining both a customer rating of “satisfactory”
       and costs per resource unit at the FY98 baseline.




                                          13
Appendix B


 Target                 Target Description Stated in the FY 1999 Performance Plan
Numbe
    r
MS-9 Enhance contract management through improved systems and information for
        monitoring and through an emphasis on the training of procurement personnel, and
        revise metrics to assess the overall health of the procurement function.
MS-10 Enhance contract management through improved systems and information for
        monitoring and through an emphasis on the training of procurement personnel, and
        implement a strategy for evaluating the efficacy of procurement operations.
P-4     Reduce the 5-year average spacecraft development time for Space Science and Earth
        Science to 5 years, 2 months from 8 years, 3 months.
P-6     Set up a process to determine percentage of the Agency’s R&D budget dedicated to
        commercial partnerships, and establish a baseline.
R-5     For the aviation safety areas of Controlled Flight into Terrain, runway incursion, and loss
        of control, identify the contributing causes to be addressed, potential solutions using
        current capabilities, and gaps that require technology solutions.
Y-18 EOSDIS [Earth Orbiting Satellite Data Information System] will increase the volume of
        data archived by 10 percent compared to FY97 (at 126 terabytes). Goddard has been
        collecting trend data since FY94.
Y-21 Award 50 new graduate student research grants and 20 early career postdoctoral
        fellowships in Earth Science.
Y-33 Complete solicitation for at least seven cooperative agreements with State and local
        governments in land-use planning, land capability analysis, critical areas management,
        and water resources management.




                                            14
                    Appendix C. Summary of Prior Audit Coverage

NASA Office of Inspector General

“NASA Implementation of the Government Performance Results Act,” IG-99-055,
September 28, 1999. The report states that NASA (a) had not made a timely assessment of
progress in achieving FY 1999 performance goals and (b) had not established formal procedures
to ensure that all the data and information used to evaluate progress and report final results are
accurate and reliable. The report contains three recommendations to assist NASA in addressing
and correcting these issues. Management concurred with all recommendations.

General Accounting Office (GAO)

“Managing for Results: Observations on NASA’s Fiscal Year 1999 Performance Plan
(letter report),” June 5, 1998, GAO-NSIAD-98-181. Pursuant to a congressional request,
GAO reviewed NASA’s plan with a focus on (1) goals and objectives including how the Agency
plans to measure progress toward achieving the goals and objectives, (2) Agency strategies and
resources needed to achieve the goals and objectives, and (3) availability and reliability of data
necessary to achieve progress.

GAO determined that the Agency's plan could provide a clearer picture of intended performance
across the Agency, does not fully portray the strategies and resources needed, and does not
provide complete confidence that the information NASA will use to assess performance will be
accurate, complete, and credible. GAO noted a number of strengths in the plan including that it
provided good linkage between strategic goals and the plan’s performance goals and targets and
that it used generally objective, quantifiable, and useful performance measures.




                                            15
Appendix D.   Management’s Response




               16
Appendix D




             17
     Appendix D




18
Appendix D




             19
                          Appendix E. Report Distribution


National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AE/Chief Engineer
AF/Chief Technologist
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Associate Administrator for Procurement
I/Associate Administrator for External Relations
ID/Director, Assessments and Technology Division
IM/Director, Resources Management Office
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
R/Associate Administrator for Aero-Space Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans


NASA Advisory Official

Chairperson, NASA Advisory Council


NASA Centers

Director, Ames Research Center
Director, Goddard Space Flight Center
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
 Chief Counsel, Kennedy Space Center
Director, Langley Research Center
Director, George C. Marshall Space Flight Center




                                          20
Appendix E

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office of
 Management and Budget
Associate Director, National Security and International Affairs Division, Defense Acquisition
 Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space


Chairman and Ranking Minority Member - Congressional Committees and Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Majority Leader
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations House
Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                           21
                       NASA Assistant Inspector General for Auditing
                                      Reader Survey
The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent with
our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Validating FY 1999 Performance Data To Be Reported Under the
              Government Performance Results Act (GPRA)

Report Number:                                        Report Date:


Circle the appropriate rating for the following statements.
                                                      Strongly                                Strongly
                                                       Agree     Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically        5        4       3          2           1      N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

      Excellent                     Fair
      Very Good                     Poor
      Good
If you have any additional comments or wish to elaborate on any of the above responses,
please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                  Media
       NASA Employee                        Public Interest
       Private Citizen                      Other:
       Government:            Federal:           State:       Local:


May we contact you about your comments?

Yes: __________                            No: __________

Name: ____________________________

Telephone: ________________________

Thank you for your cooperation
Major Contributors to This Report

Chester A. Sipsock, Program Director, Environmental and Financial Management Audits

V. Richard Dix, Program Manager

Linda Wagner Anderson, Auditor

Teresa J. Danne, Auditor

Nancy C. Cipolla, Reports Process Manager

Annette Huffman, Program Assistant
